AAR ON

R EGIONAL OFFICES
84 H ARLOW ST. 2ND FLOOR
B ANGOR. MAINE 0440 l
TEL: (207) 94 1-3070
FAX: (207) 941-307 5

M . FRE Y

ATTORNEY GENERAL

STATE OF M A IN E
T EL: (207) 626-8800
TTY USERS CALL MAINE RELAY 711

OFFICE OF T HE A TTORNEY GENERAL

6

STATE H OUSE STATION

A UGUSTA, M A I NE

0 4333-0006

125 PRESUMPSCOT ST. , SUITE 26
PORTLAND, M AINE 04]03
T EL: (20 7) 822-0260
FAX: (207) 822-0259
14 ACCESS HIGIIWAY, STE. J
CARIBOU, M AINE 0 4 736
TEL: (207) 496 -3792
FAX: (2 07) 4 96-329 J

March 5, 2020

Scott Harris, Clerk
Supreme Comt of the United States
Office of the Clerk
I First Street, NE
Washington, DC 20543-0001
Re:

Jonathan Reisman v. Associated Faculties ofthe University ofMaine, et al.
No. 19-847

Dear Mr. Harris:
I am writing to request a thi1ty-day enlargement of the deadline by which Respondents
must respond to the Petitioner's Petition for Writ of Certiorari. Respondent Associated Faculties
of the University of Maine joins in this request. Respondents University of Maine at Machias,
and the Board of Trustees of the University of Maine do not object to this request.
The State of Maine (as well as the other Respondents) initially waived their right to
respond to the Petition. On February 27, 2020, the Comt requested a response to the Petition by
March 30, 2020. Due to the press of other business, undersigned counsel anticipates that she will
need additional time to prepare a response to the Petition. Accordingly, the State of Maine
respectfully requests that the deadline for all Respondents to respond to the Petition be enlarged
until April 30, 2020.
I have also contacted Andrew Grossman, Esq., com1sel for Petitioner regarding this
request. Petitioner does not object to the enlargement. Thank you.
Very truly yours,

~ ' : p,4"Ma.f'\
SUSAN P. HERMAN
Chief Deputy Attorney General
SPH/lsf
Enclosure

Scott Hanis, Clerk
Supreme Court of the United States
March 5, 2020
Page 2
cc:

Andrew Grossman, Esq.
Jacob Karabell, Esq.
Linda D. McGill, Esq.
Tara Walker, Esq.
James Gideon Abernathy, Esq.
George Edward Anhang, Esq.
Jacob H. Huebert, Esq.
Erik S. Jaffe, Esq.
Sam Kazman, Esq.
Nathan Jolm McGrath, Esq.
William L. Messenger, Esq.
Ilya Shapiro, Esq.
Daniel Robert Suhr, Esq.
Erin Elizabeth Wilcox, Esq.

